s
*■

-59 51
X' .

IN THE
SUPREME COURT OF THE UNITED STATES

Supre

nLeC^Tus
filed

^5 202!
OCTOBER TERM 2021

STEVE BAUMGARTEN
Petitioner,
vs.
ERIKA EVANS
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE STATE OF WA

STEVEN BAUMGARTEN
PO BOX 17219
Seattle, WA 98127
(206) 739-7593
washusahealth@gmail.com
SUBMITTED: October 7, 2021

Q ORIGINAL

OFFICEof

ZZiCLEFtK

•

QUESTIONS PRESENTED

1) Is the U.S. Constitution and federal case law violated when a trial court
erred in finding substantial evidence of two or more distinct, individual, noncontinuous occurrences of stalking when there was only one demonstrable
instance of random contact which can be proved and disproved there was
any other?
2) Was my US constitutional right to disqualify a judge violated 29 U.S.
Code §455 Disqualification ofjustice, judge, or magistrate judge to
disqualify a judge
3) What does the Constitution say about perjury? What is the public interest
in all kinds of people taken down by accusations when false accusations
false statement after statement which all 3 Ms. Levias, Ms. Evans, Ms.
Sylvester all-knowing made proven false statements omissions and
dishonesty to obtain that some can be proved?
4) Do US officials United States important to know the public interest of
mental illness discrimination and the fact we are victim of crimes and often
victims of false reporting are almost 50,000,000 mentally ill and 11,400,000
seriously mentally ill in United States

l

5) Does the Public Interest of systematic prejudice and selective prosecution
against the mentally ill which cops’ courts city attorneys happen to me in
this case and pattern by the cops, judges and these exact city attorneys
against the mentally ill who are guilty of allowing not just me but the
mentally ill in general to be victims of assaults (David Jones threatening me
for decade before and after the night he chased me injured my brain) for
instance.
6) Is it a NATIONAL PUBLIC INTEREST MARIJAUNA LAWS the
CONFLICT OF INTEREST between FEDERAL and STATE LAWS and
serious HEALTH HAZARDS MENTAL and PHYSICAL associated with
MARIJUANA that affects the mentally ill and all people in general.
7) Was the systematic prejudice against mentally ill in the court system a
greater national public interest that has affected the mentally ill since the
medieval times on a United States National level the green light to perjure in
writing also in one false statement after another a factor in more than what
just happened to me many other mentally ill people experienced and people
in general have been victims of false accusations.
8) Was the Eighth Amendment of the US Constitution of the United States
violated regarding excessive punishment. They know that I don’t know who

2

she is other than by name, which is why they put her on the phone in court.
I have a brain injury and do not remember her the ESP checking question for
Ms. Levias about other receptionists and later the 2nd ESP checking
question of what happened remember don’t remember Ms. Evans nor Ms.
Levias not any of 8 female city attorneys in court. They put Ms.Evans on the
phone because they know don’t know who she is other lady thought was her
figured out was Ms. Sylvester a little better because she was saying all this
false stuff. Was the 1000 foot permanent order in this not so big town till
day I die EXCESSIVE INAPPROPRIATE to 1 random contact for 35
seconds maximum as proved where moved to the front left of the bus to be
considerate to see Brent and a little mindless dribble (basketball) in park
when don't know who she is as they know when have Brain injury and
already forgetting stuff and risk of dementia.
9) PUBLIC INTEREST Was my constant unavoidable 2nd hand Marijuana
exposure and lack of sleep and concussion that caused my delirious
exhausted constant fantasizing forgetfulness that reopened my
schizoaffective mental illness caused decades ago by marijuana and
exacerbated by marijuana. Was it taken into consideration? Do millions of
other mentally ill people have same situation there mental illness is not
understood or taken in consideration
3

r
10) Was Amendment XIV also right to travel and bias of court violated
since I have no idea who she is, other than her name. Due to my mental
illness I would not know who she is wherever I ran into her.
11) Was my Constitutional 1st amendment right violated freedom of speech.
There was no threat. There was no asking for drugs. The question I had was
merely an ESP question

4

TABLE OF CONTENTS
COVERSHEET
1-4

QUESTION(S) PRESENTED

5

TABLE OF CONTENTS
TABLE OF APPENDICES

6-7

TABLE OF AUTHORITIES

8-10

12-19

JURISDICTION

20

OPINION BELOW

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED...20
STATEMENT OF CASE

20; 22-23

PRIOR PROCEEDINGS

21
. 22-23

FACTUAL BACKGROUND
REASONS FOR GRANTING PETITION

24-36
37

CONCLUSION

5

r

TABLE OF APPENDICES

The Ruling of the trial court is attached as APPENDIX A.
The ruling of the Washington Court of Appeals is attached as APPENDIX B
The decision by the Washington Supreme Court is attached as APPENDIX
C.
Verbatim Report of Proceedings (VRP) of the hearing on Order for Protection held on
March 5, 2019 in King County Superior Court Case No. 19-2-05066-7SEA and filed with
the Court of Appeals on July 30, 2019 attached as APPENDIX D.
(cited as VRP pp. 1-57)
Letters from doctors, psychologist, clinicians that the trial, that was extremely
paramount to understand the case, that court never read or considered (Appendix D,
page 27, to page 29. APPENDIX E

6

r

\
/

Lawyers declarations that know me and know what happened, that is extremely relevant
to the case and judge never read or considered. APPENDIX F.
Declarations from friends and acquaintances who understand the situation about me
that is relevant to the case, that the judge never read or considered APPENDIX G
My declaration, served and put in the judge's box a day before trial, which are relevant
to the case and which the court never read read or considered APPENDIX H

* i

or

jplccQ i/ug^hlly rigid- io

Jc

Oy-^r-

O

idcy gb c>/js

/0<0

jfru.

df\Cod

j

hof

^

0/yQ

^ H i’^Q/

Qs'j^C
j ofCj /o<rf ^c! v/
QfUt/

i'

cjty
Os~>

*

\pSrpor£

rod(r*o,'0

d P C leroii
lotevr\c~yr ded/ a+d

hp

p&r)

4M>

fijQrv '

#bo

sac spjf^jy- ^a^'afx.c stye cr~
1°^, Jt

Ot^v /of/dT*

Cd ’
</*>/&/

S'oJr vP a0\Q

t>

r
TABLE OF AUTHORITIES
Cases
State v Schimelpfenig 128 wn.app 224
City of Seattle v. Meah,
297 P.3d 69 (Wash. Ct. App. 2011).............................
Kencayd v. Priece,
196 Wn. App. 1073 (2016)............................................
State v. Haines,
151 Wn. App. 428, 213 P.3d 602 (2009)
State v. Kintz,
169 Wn.2d 537, 238 P.3d 470 (2010)
Boisen v. Burgess, 87 Wn. App. 912, 943 P.2d 682, 685 (1997)
Sunnyside v. Gonzalez, 188 Wn.2d 600,

10 City of

398 P.3d 1078 (2017)............................................................
Compassion in Dying v. State, 850 F. Supp. 1454
(W.D.Wash., 1994)...............................................................
Evans v. Baumgarten, No. 79948-7-1 (April 27, 2020), Not Reported in Pac. Rptr., 13
Wash.App. 2d 1037, 2020 WL 2026080......
Fey * State, 174 Wn. App. 435, 300 P.3d 435 (2013)..........................
In re Ayers, 105 Wn.2d 161, 713 P.2d 88 (1994).................................
In re Marriage of McCann, 4 Wn. App.2d 896,
424 P.3d 234 (2018)........................................................................
In re Marriage of Rideout, 150 Wn.2d 337, 77 P.3d 1174 (2003).........
In re Matter of Arnold, 190 Wn.2d 136, 410 P.3d 1133 (2018).............
People ex rel. Wallace v. Labrenz, 411 III. 618,
104 N.E.2d 769(1952)...................................................................
Scott's Excavating Vancouver, LLC v. Winlock Properties, LLC,
176 Wn. App. 335, 308 P.3d 791 (2013), rev. denied,
8

r
179 Wn.2d 1011 (2014).........................................................................
Sorenson v. City of Bellingham, 80 Wn.2d 547,

496 P.2d 512(1972)...............................................................................
State ex ref. Public Disclosure Comm'n v. 119 Vote No! Comm., 135 Wn.2d 618, 957
P.2d 691 (1998)..........................................................
State v. Beaver, 184 Wn.2d 321, 330 P.3d 385 (2015)............................
State v. Gentry, 183 Wn.2d 749, 356 P.3d 714 (2015)............................
State v. Hughes, 142 Wn. App. 213, 173 P.3d 983 (2007)......................
State v. Hughes, 166 Wn.2d 675, 173 P.3d 983 (2009)...........................
State v. Kintz, 169 Wn.2d 537, 236 P.3d 470 (2010)...............................
State v. Lee, 135 Wn.2d 369, 957 P.2d 741 (1998)..................................
State v. Schimelpfenig, 128 Wn. App. 224, 115 P.3d 338 (2005)............
State v. Watkins, 71 Wn. App. 164, 857 P.2d 300 (1993)...........
Weyer v. Twentieth Century Fox Film Corp

198 F.3d 1104 (9th. Cir. 2000)

Statutes
.17 RCW
17 RCW
11 RCW
11 RCW
11 RCW 7.92.100
6 RCW7.92.100(1)(a)
10 RCW 7.92.100(2)(c)
10 RCW 9.95

RCW 4.12.040
4.12.050(1)(a)

7.92.020(3).....
7.92.020(4).....
7.92.020(4)(c)

20

1) 1st Amendment Freedom of Speech
2) 8th Amendment Excessive bail Excessive fines Excessive can apply to
civil also
3) Amendment XIV Section 1 Right to travel right to be on a bus on a link
transit system here in a post office bank city hall court house beach link
train transit center
9

z
4) Perjury Federal Perjury crime all 3 ladies used dishonesty omissions in 1
false statement after another to obtain this
RCW
RCW
RCW
RCW
RCW

7.92.020(3)(c)(i)
7.92.020(3)
9A. 46.110(1 )(a)
9A.46.110(6)(e)
10.14.020(1)

RCW 10.14.020(2)

1 8 RAP 13.4(a)
8 RAP 13.4(b)
AP 13.4(b)(3)

of v^Qr

12 RAP 13.4(b)(4)

-^

6'f 31

Hfy i I I ojor lj~ &OH/
wW/- user doi£9

Appendix 1:

DQlwr

Appendix 2:
Appendix 3:

V

Appendix 4:

J {VC^P
-fcrfcftH'J \y<jr

lW

Appendix 5:
Appendix 6:
TABLE OF APPENDICES

10

)cS'O
KssC)

ik fiV'iby/'

No.

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM 2021

STEVE BAUMGARTEN
Petitioner,
vs.

ERIKA EVANS
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE STATE OF WA

Steven Baumgarten (Mr. Baumgarten) petitions for a Writ of Certiorari to review
the judgment of the Washington state Court of Appeals and the Washington State
Supreme Court, vacate the judgment entered against him for civil stalking by the
King County Superior Court, and remand for reconsideration.

11

JURISDICTION
After appealing this case to the Washington Court of Appeals, it was appealed to
the Washington Supreme Court. The Supreme Court of the state of Washington
would not hear the appeal though numerous errors oversites logic mistakes proven
false statements by city attorneys. The appeal from that court is to the United
States Supreme Court.
The serious public interest questions raised by this case and the greater good for
the health and awareness of the United States for millions of the United States
society give the Supreme Court jurisdiction. The conflict of state and federal law
regarding marijuana is one of those public interest questions, which the root of this
case is all about. The serious health consequences, particularly for the mentally ill,
is another. The systematic prejudice against the metnlaly ill is another not
understanding or considering their point of view. The green light to peijure, use
omissions, dishonesty, make false statement after false statement in today's United
States is another which even if I’m a nobody of importance a metnally ill
schizoaffective from marijauna decades ago and exacerbated opened up from this
12

non stop 2nd hand with OCD that needs to analyze details and wonders to check
about ESP to debunk it. That’s exactly what all 3 ladies did in one false statement
after another that much of it can be proved they did. These PUBLIC INTERESTS
gives United States Supreme Court Jurisdiction
If Ms. Sylvester tries arguing that this isnew not mentioned in lower courts.
MISTAKE in lower court in all DOCTORS, PSYCHOLOGISTS, CLINICIANS
LETTERS my DECLARATION, friends, lawyers JUDGE NEVER READ WAS
ALL ABOUT MAIRJAUAN AND THE ESP QUESTION. They were put as part
of the case a day before in his box. I mentioned ESP checking questions over and
over. It WAS MENTIONED and WRITTEN. jUDGE NEVER READ.
IF Ms. Ms. Sylvester says the same she wrote in State court this is a personal
interest it's BOTH I’m destroyed by mairjauana it’s a PUBLIC INTEREST also.
When I came back here a few months ago, late in the cold I saw a homeless guy
talking to himself. Poured him vegetable juice he had SCHIZOPHRENIA from
MAIRJAUANA. Few nights later another homeless man a block away was also
the same. I also saw men, women and a new wave of SCHIZOPHRENICS and BI
POLAR 44 YEARS After I knew this then. New young people gals and guys
talking to themselves they have a PERMANENT PROBLEM as I do Most from
Marijauana and drugs.

13

rAs MARIJAUAN AND 2ND HAND MARIJUANA GOES UP MENTAL
ILLNESS GOES UP AS MARIJAUANA AND 2ND HAND MAIRJAUANA
GOES DOWN MENTAL ILLNESS GOES DOWN. For everyone else besides
lowers IQ HEART ATTACKS, STROKES, CANCER, DEMENTIA and 2nd
HAND MARIJUANA GREATLY INCREASES GETTING DEMENTIA also
as well as long term INSOMNIA because of non stop 2nd HAND CANNABIS as
well as CONCUSSION and all these things I have and dementia in my family and
forgetting stuff already. Now finally got someone below me he is decent guy he
doesn’t smoke so first time in 8 years got decent not poison non toxic non
marijauana air till someone else moves in that does and they do it all over the parks
bus shelters beaches PUBLIC everywhere in the States its legal and can mention 8
States they don’t enforce it where it’s ILLEGAL Huston El Paso Texas nice gal in
my building 6th floor she said before Seattle she lived in Houston asked her she
said they smoked in both Streets and Apartments no cops did anything. She and
her sister used to work sell State Farm insurance in Seattle. They moved back to
Texas El Paso talked to her brother on telephone he said he smokes maiijauana in
El Paso others do too in public in apartments no cops or anyone does anything. At
basketball court same park headed that night to see Brent and mindless dribble
(basketball) court talked way into night sitting down on picnic table to dark nice 26
Chinese guy played basketball with he said he has Masters degree engineering
14

where did you go to college Texas A & M he said they smoked it also there too no
enforcement not as bad as Seattle. Seamstress had a guy work for her. He said he
went to University of Kentucky Lexington Ky. He said they smoked it and there
was also no enforcement (illegal in Kentucky also) Though I’m not welcome back
to that seamstress, they messed up the job and wouldn't refund me. I came at 8 AM
to pick up my pants instead of 10AM. Went somewhere else where a lady and her
son got the job done did well. Guy works at food bank George Mason University
Virginia (before it was legal) near Washington DC he said he said they smoked it
there too before it was legal no one did anything. Lawyer Ken’s former assistant
Kristen said she’s from Theodore Alabana? Went to Spring Hill college Mobile
Alabama and she said they smoked it on streets in apartments they did not enforce
it in Alabama either (it's supposed to be illegal in Alabama also) Steamed last
quarter and half of the super bowl (Tampa Florida, all these Staters supposed to be
illegal marijuana), enough quarter and half of football for the year took me half
hour to figure out how to stream it on Sling TV due to lack of appropriate IQ. An
hour later interviews announcers in the stadium parking lot Tampa announcers said
they lit up smoked marijuana in parking lot Raymond James Stadium Tampa
Florida (Supposed to be illegal in Florida) announcers said outside stadium. Saw
for 15 minutes after because I don’t really have a life as everyone else does. I just
fantasize dream away. There was no security, no police cars, there were no
15

handcuffs. Now on telephone got customer service, a fellow asked he said he’s in
Tulsa Oklahoma asked about marijuana knowing it's illegal in Oklahoma also. He
said they smoke in apartment buildings and in public there too they do nothing.
and its AMERICA'S last priority, even PRE DIABETES and COMPLICATIONS
OF DEATH OF THOSE THAT HAVE IT maybe that's type 1. IT'S HORRIBLE,
IT’S BAD FOR PREGNANT MOTHERS AND THEIR BABY’S it's terrible.
And this whole case was about it and was in DOCTORS CLINICIANS LETTERS
JUDGE NEVER READ and I said ESP harmless checking question over and over
in my delirious exhausted fantasizing disorganized schizo effective OCD mental
state. What is ESP that’s what I asked about that was the question the 1st if Ms.
Levais talked to another receptionist. ESP is was what I asked about mental illness
caused by Maiijauan decades ago. Marijauana caused these thoughts 45 years ago.
My late mom saved my life by getting me to other country where I got into
analyzing subconscious reasons or underling reasons for detailed illogical stuff that
no one cares about.
Than this constant explosion of maiijuaana and non stop 2nd hand marijauana
started fantasizing again wondering about ESP and lack of sleep for years because
of it and the concussion David Jones that would have could have been prevented if
he threatened any regular person for a decade before and after concussion these
same city attorneys know he would have been in jail a long time ago. Mr. Jones
16

isn’t the only one I’ve had. Another example 2013 Russian stranger pulled up his
car 15th and dravus comletel stranger his window rolled down me on sidewalk he
had black gun black glove in his right hand he said to me “I’ll kill you” moved
away got away got his license police said he lives in Tacoma by plate. A month
later called officer Scott Enright to see what happened and he said no follow up
zero. I asked if that were someone else there would be floor up he yes of course
that’s a serious felony he did to me.
There have been over 20 other instances if it happened to a regular person all
would be detained in jail. Was threatened, chased by women too also some never
did cops city attorneys judges do anything to perpetrators. Other mentally ill
people have same plight victims of crimes brain injuries much worse than me cops
city attorneys judges do nothing asked an analyzing question to
1 block from where lived exactly 11 years Marijuana also against Washington
State smoking law chapter 70.160 and leases and the delirious exhausted mental
state was in the whole time. Sleeping in golf course Stacey’s yard when she didn’t
let me in she knows under truck wandering through University of Washington
2Am 3Am exhausted delirious in woods in church across water in Bellevue and
few weeks ago here slept in friends garage shed she knows wandered all night
resting in Seattle Housing Authority bathroom in back starwell near very top sign
said Electrical radiation beyond this point. Now finally the new guy below is a
17

r

good guy who does not smoke so can stay here for a while till a new marijuana
smoker moves in.
Look there saying your nuts, we don't care if you're a victim. We don’t care your
brain is injured we don't care mairjauana and 2nd hand marijauan obviously has
caused me and the mentlaly ill across this country permanent damages. Obviously
all these mentally ill people most of them CAUSED and EXACERBATED by
Mairjauana we don’t care about the mentally ill there nuts of course most of them
not just me Mairjauana cause we don't care. Many I’ve met had been victims also
beaten unconscious into comas permanent brain damage much worse than me.
Cops city attorneys never get videos of perpetrators, (sorry to mention this reality
to the Supreme court) All the scientific evidence harms marijuana causes. For
everyone else too as touched tip of the iceberg of health consequences. But they
say I can’t ask questions. They'll lie, make false statements and get permanent
1000 foot orders over literally nothing. If lady was uncomfortable after moving to
the front left of the bus to be considerate. Apologize sincerely for
misunderstanding in court and at the end apologized again and said good luck.
What else you need It’s not that serious the unfair brutal EXCESSIVE unjust
consequences abuse of power were.
In this serious CONFLICT OF INTEREST BETWEEN STATE and FEDERAL
LAW THE FEDS IF THEY WANTED COULD SAY THE HECK WITH
18

POPULARITY and WHAT POP CULTURE THINK WE COULD COULD
CLOSE DOWN EVERY MARIJUANA SHOP IN THIS COUNTRY. Enforcing
it would greatly improve the mental and physical health of the United States me
being one. If Ms.Sylvester types saying Maiijauan and mental illness wasn’t
mentioned earlier wrong in all doctors psychologist letters and declarations was
about this. JUDGE NEVER READ Page 27 court hearing trascrpit line 23 24 Page
28 Page 29 Alll about maiijauan DOCRORS PYCHOTLGISISTS CLINICIANS
LETTERS my dont’ knwo who she is ESP ESP it wa. Judge never read.
In the greater good of the United States the court should void this abuse of power
unnecessary order and the numerous Public Interests from systematic prejudice
against the metnally ill the Green Light to use dishonesty false statement after false
statement also mentioned in the lower court systematic prejudice constitutional
violations from EXCESSIVE to right to TRAVEL to not taking into consideration
peoples disability mental illness and concussion and risk get dementia and
Marijauan the conflict of State and Federal laws the right for the FEDS still to shut
down every maiijauan shop in this country and still enforce it root of this whole
case the ESP checking harmless question

19

OPINION BELOW
The Ruling of the trial court is attached as APPENDIX A.
The ruling of the Washington Court of Appeals is attached as APPENDIX B
The decision by the Washington Supreme Court is attached as APPENDIX C.

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
1) 1st amendment freedom of speech violation
2) Eighth amendment Excessive

Excessive bail
3) "The right to travel is a part of'liberty' of which the citizen cannot be deprived
without due process of law under the Fifth Amendment.

4) Amendment XIV Section 1
5) Under federal law, perjury is committed when a person “knowingly” attests to
or subscribes to statements he or she does not believe are true. Perjured
testimony is not protected by the First Amendment, because it undermines the
ability of courts to obtain truthful testimony and to effectively

STATEMENT OF CASE
Please see the factual background below.
20

PRIOR PROCEEDINGS
On February 22nd, 2019, a Temporary Protection Order and Notice of Hearing
for Stalking was approved and entered by Commissioner Henry Judson. CP. On
March 5th, 2019, The Honorable Marshall Ferguson granted an order for
protection for Respondent, Erika Evans, against the Appellant, Steve
Baumgarten. RP 47, who appeared pro se at that hearing. The court found by a
preponderance of the evidence that Appellant engaged in stalking conduct
based on RCW 7.92.020(3)c(i). RP 47. On March 15, 2019, Appellant, Steven
Baumgarten, by and through this attorney, filed a Motion for Reconsideration to
which Respondent, Erika Evans, objected. CP. On April 5th, 2019, Mr.
Baumgarten’s Motion for Reconsideration was denied. CP. A Notice of Appeal
was filed in this Court on May 3,2019. CP.
The appellate court decision, denying Mr. Baumgarten’s appeal, was made on

The Washington State Supreme Court’s decision to not hear Mr. Baumgarten’s
appeal to them, was made on

21

FACTUAL BACKGROUND
On January 31st, 2019, Mr. Baumgarten appeared at the Seattle City
Attorney’s Office reception desk to serve paperwork pertaining to his ongoing
appeal against the Seattle Police Department. RP 9. Mr. Baumgarten had
previously done this on many occasions, as he was pro se on that appeal, and
had requested several continuances, among the other reasons he had to deliver
papers to the city attorney’s office. Mr. Baumgarten spoke with Lisa Levias, a
receptionist at the City Attorney’s Office, and, apparently, mentioned the name
of Erika Evans. RP 9. Ms. Evans is one of the attorneys for the City of Seattle
who represents the Seattle Police Department in a case that had been dismissed
by the superior court, a dismissal appealed by Mr. Baumgarten. Very shortly
after, Mr. Baumgarten happened to ride the elevator down to the lobby with Ms.
Levias. RP 9; RP 34. Unbeknownst to Mr. Baumgarten, Ms. Evans was also on
board the elevator. RP 9. The record does not indicate that Mr. Baumgarten
directly engaged with Ms. Evans. RP 9. After exiting the elevator, Mr.
Baumgarten noticed that Ms. Levias was speaking to a woman who had also
been on the elevator. RP 9. Mr. Baumgarten then boarded the Route 70 bus to
visit Brent Kremen at his home. RP 25; RP 36. Mr. Kremen testified that he
was expecting a visit from Mr. Baumgarten. RP 25. Ms. Evans was also taking
22

the Route 70 bus on the evening of January 31st, 2019: again, unbeknownst to
Mr. Baumgarten. Upon recognizing a woman who looked like the same woman
that Ms. Levias had been speaking with earlier, Mr. Baumgarten asked the
woman, who turned out to be Erika Evans, several questions. RP 37. Mr.
Baumgarten’s questions related to seeing Ms. Evans speaking with Ms. Levias
and if they were speaking about him RP 37. Mr. Baumgarten was engaging in
these ESP or analysis questions to satisfy a component of his OCD (obsessivecompulsive disorder). RP 16. Mr. Baumgarten’s need to analyze details is a
result of his obsessive-compulsive disorder. RP 16. RP 37. Mr. Baumgarten did
not realize that the individual to who was asking questions was Ms. Evans. RP
38. Ms. Evan’s exited the Route 70 bus shortly after Mr. Baumgarten began
asking her questions. RP 10. Mr. Baumgarten remained on the bus. RP 37.
Approximately three weeks later, Mr. Baumgarten again visited the City
Attorney’s Office to serve papers pertaining to his appeal in the Seattle City
Police case. RP 38. Mr. Baumgarten asked Ms. Levias if she was speaking
about him to the woman from the January 31st elevator ride, after they got off
the elevator - again asking to quell his own OCD through analysis questions.
RP 38.
During the hearing while Ms. Evans was on the telephone, I apologized for the
misunderstanding. Even at the very end I said, good luck.
23

REASONS FOR GRANTING PETITION
I) Public Interest Green light to peijure use dishonesty omissions make
false statement after false statement not just what happened here but a
bigger United States issue many people are taken down if it is true
then of course repercussions should happen but when they lie peijure
use omissions dishonesty which can be proved on numerous
statements happened in this case by all 3 ladies Ms. Levias, Ms.
Evans, and Ms.
2) Public Interest also the systematic prejudice against the mentally ill, the
failure, to protect my brain injury and many other mentally ill got brain
damage much worse than me
3) 3) The BIG PUBLIC INTEREST conflict of FEDERAL and STATE LAWS
ABOUT MAIRJAUANA AND HEALTH CONSEQUENCES
ASSOCIATED for almost 50 million mentally ill people in America and
11.4 million seriously mentally ill and the serious health consequences of
everybody, and most of it is caused or exacerbated by marijuana and drugs,
me being one that has been destroyed by it and the courts system blow had a
lack OF UNDERSTANDING DISABILITY MENTAL and THEIR POINT
OF VIEW.
4) 4) HUGE PUBLIC INTEREST CONFLICT FEDERAL and STATE LAW
about MARIJUANA and HEALTH CONSEQUENCES Connected to it.
5) Public Interest Green light to perjure use dishonesty omissions
makefalse statement afterfalse statement notjust what happened
here but a bigger United States issue many people are taken down if
it is true then of course repercussions should happen but when they
lie perjure use omissions dishonesty which can be proved on
numerous statements happened in this case by all 3 ladies Ms.
Levias, Ms. Evans, and Ms. Sylvester The green light to perjury,
write and make 1 false statement after another use omissions
dishonesty to obtain this. All 3 of these city attorney ladies are guilty
of crimes and wrong and dishonesty they did here. Many nonmentally ill people also are taken down by false accusations
mentally ill are more vulnerable. Again, if there was an attack or
threat like so many times on me, yes of course I should do
something to the perpetrators regardless of if the victim is mentally
ill or homeless disabled whatever gender race socioeconomic factor.
24

If in all these accusations, we all see and read are true then of
course but an ESP checking harmless MARIJUANA induced
mental illness questions in 1 random contact as provedfor 35
seconds maximum also proved when moved to the front left of the
bus to be considerate isn *t that When they lie write false statement
afterfalse statement in things that can be logically mathematically
proven to be lies the crimes in this case were all 3 ladies omissions
lies false statements under affidavit to tell the truth over nothing
more than a harmless ESP checking question in 1 random contact
to see Brent and basketball as proved no more than 35 seconds when
I moved to front left of bus to be considerate. This green light to lie
and write false statements and crimes of dishonesty that all 3 women
are guilty of here is a public interest much greater than what these 3
ladies did criminally wrong here in today's United States where
many people are taken down when here proven they all 3 made
wrote false statement after false statement under affidavit to tell the
truth
6) Public Interest also the systematic prejudice against the mentally ill,
the failure to protect my brain injury and many other mentally ill got
brain damage much worse than me. How courts go against us. In Ms.
Sylvesters argument in State court is that she’s saying this is double
jeopardy? Don't know what that is, this is divorce this this is that it’s
all under the same umbrella of Mental Illness DISCRIMINSTION. I
said over and over in court the question was about ESP. Brent is
mentally ill too. He explained the DOCTORS LETTERS,
PSYCHOLOGISTS LETTERS, CLINICIAN LETTERS, friends,
LAWYERS letters that attorney John Barash all my legal problems
are because analyze. The ESP question is a harmless mental illness
question. The judge as you read in transcript only read Evans and
Levias declarations which Evans used Omissions false statements and
Levias perjured herself too can PROVE it mathematically. Ms.
Sylvester also PERJURED HERSELF on many statements which can
be proved. But the power structure permits them to perjure and write
provable false statements to their city attorneys. None of this is the
harmless ESP marijuana induced mental illness question in 1 random
contact in doctors psychologists’ letters that JUDGE NEVER READ
nor did he read My declaration of what I said the first question is if
Ms. Levias talked to other receptionists as pictured when serving
papers making jokes for someone else. I asked a similar ESP
25

checking analyzing question at the food bank where there was no
1000-foot permanent order.
One important thing I apologized for the understanding in court they
know don’t [ know who she is is why was on PHONE and in end said
sorry for misunderstand good luck what else you need how serious is
1 random ESP checking question
3) The BIG PUBLIC INTEREST conflict of FEDERAL and STATE LAWS
ABOUT MAIRJAUANA AND HEALTH CONSEQUENCES
ASSOCIATED courts lack OF UNDERSTANDING DISABILITY
MENTAL and THEIR POINT OF VIEW. This whole case the root of it
ESP checking question was a marijuana mental illness harmless question
ESP and my mental illness got rekindled reopened by 2nd hand marijuana
constant lack of sleep and brain injury from homeless violent man Mr. David
Jones 12/1/79 birthday (same name as the late great David (Deacon) Jones
(Dec. 9, 1938 Eatonville FI - June 3 2013 Anaheim Hills CA) Sad but that
was my wonderful late mom’s birthday when the late great David Deacon
Jones passed away original member of the legendary fearsome foursome LA
Rams front 4 in 60’s and 70’s Rams ranked him there # 1 defensive player of
century) that threatened me decades before concussion and after including
just outside soup kitchen Friday night 9/24/21 didn’t go this last Friday. So
many other times people chased and threatened to knock me the f out for
nothing, been attacked, chased assaulted by women also even when I did not
ask them any analyzing questions or talk necessarily has happened numerous
times never did cops courts city attorneys do anything to perpetrators, but
they did again and again for wondering a OCD analysis question. My life
was threatened with a serious felony and never did cops, courts or city
attorneys do anything to perpetrators. But you can’t ask questions there
saying you can’t ask about ESP as you see. The Public Interest is mentally ill
people have been lied to in court for century’s all around this country and
around the world, not just me.
4) HUGE PUBLIC INTEREST CONFLICT FEDERAL and STATE LAW
about MARIJUANA and HEALTH CONSEQUENCES Connected to it.
This whole case root of it I was delirious can’t sleep outside due to nonstop
2nd Hand MARIJAUNA 2nd HAND EXPOSURE. The ESP questions I
wonder ask everyone this being 1 in 1 random contact. I care about these
mentally ill I see at soup kitchens out in the cold at 1AM when I get back
late that are freezing homeless and in halfway house and in their places that
talk to themselves that are dysfunctional that have a PERMANENT mental
26

health problem not like ones from Covid 19 there sick for week or so and
cure themselves. If they die, then it is tragic for them and family and
friends. But ones that got schizophrenia mostly from Marijuana got a
PERMANENT till day they pass away MENTAL PROBLEM and I see it in
all race’s genders socio economic factors. I feel bad for them most because
of Marijuana and drugs, me being one which the root of this whole case is
about. In DOCTORS, PSYCHOLOGISTS, CLINICIANS letters which
judges never read and maintained ESP question over and over.
It is linked and 2nd hand marijuana also to Dementia heart attacks, Strokes,
cancer, lowers IQ, Schizophrenia, Bipolar manic Depression all kinds of mental
illness and prediabetes complications of death from people that already have it. As
Marijuana is less prevalent mental illness will go down as Marijuana is more
prevalent Mental Illness will increase Dr. Daniel Amon, every scientific data
knows it. Some of the effects.
If the Feds wanted, they could shut down every Marijuana store shop venue in
this country and enforce it. This would help prevent all kinds of mental illness,
heart attacks, strokes, Dementia you see it's very bad for pregnant mothers and
their babies as you see also. This is what needs to happen to stop it. Unfortunate
but true. Nice talk, they don't care, say I or almost 50 million people in America
have mental illness most exacerbated by marijuana and 11.4 million are seriously
mentally ill.
The feds could say the heck with it we’ll shut down every marijuana shop in this
country and enforce this one thing on street parks where kids are exposed also. The
health consequences are too severe and still enforce it. 89 % of NFL Marcelus
Bennet says smoke marijuana and 85 % of NBA and some coaches smoke it too.
Football greats Joe Montana, Raquel Welch, Dolly Parton, basketball great and
North Korean Alie Dennis Rodman, all sell it this CBT stuff they talk about is also
psycho active. In the American Culture when football greats Calvin Johnson, Tiki
Barber all sell it and Barbara Streisand, Lady Gaga, Jimmy Kimmel smoke it
basketball greats Kareem Abdul Jabbar (April 16 1947 New York NY) and Bill
Walton (Nov. 5 1952 La Mesa CA) smoked it or Mr. Walton did when he was at
UCLA and in the NBA and after Kareem Abdul Jabbar (April 16 1947 New York
NY) Mr. Kareem Abdul still smokes it from what I read best or 2nd best basketball
player ever him or the late Wilt Chamberlain (August 21, 1936 Philadelphia PAOct 12, 1999 Bel Air Los Angeles CA). This man that beat me one on one
basketball 19-17 in the park late afternoon Sept. 11, 2006, 6-time NBA all-star 3
time all NBA 2nd team Shawn T Kemp (Nov. 26, 1969, Elkhart IN) who they
ranked one of 2 most athletic power forwards ever one of top 6 dunkers in NBA
history now has marijuana store sells it. Him beating me one on one basketball
because he was cheating (different story) Witnessed by his son, his wife self27

proclaimed legend Ed Jones Grizz myself and the reign man himself Shawn T
Kemp But my older friend, 70 something now Grizz PHD physics University of
Washington Bachelors PHD UCLA who lives now out of his car now. I see him at
the basketball court, and he said there's a big difference to me “there not
schizophrenia obviously you and others are from it”
This is a huge public interest as in most the 50 million mentally ill in United
States 11.4 million seriously mentally ill most started caused by marijuana and
drugs. This Nice Ethiopian bus driver said his daughter did a survey at Mount
Rainier High School. 100 kids 99 have tried it at least once. The only thing that
will stop it and greatly prevent schizophrenia, bipolar manic depression
DEMENTIA heart attacks strokes cancer is enforcement of this serious Health
hazard. Again, this stuff even 2nd hand is linked to dementia also.
Before covid I went to crossroads library across water Bellevue Wash on
computer young guy sits to my right talks to himself at first found him annoying
but realized he has schizophrenia so changed my attitude toward him. He smoked
Marijuana than heard voiced Permanent problem this young guy has. This young
Hispanic guy talks to himself on the bus in chatting half a minute with him its
Marijuana he did first than schizophrenia. This African American gal coming back
to Seattle across water from Bellevue she also laughs to herself thinks of funny
things in her mind as I do hear voice, she Marijuana than voices than schizophrenia
permanent problem. This nice guy met him once on a bus he’s from Saudi Arabia.
Nice guy though just met him once but clearly had mental problems. Asked him
how old were you when you first smoked marijuana, he said 2004 how old were
you in 2004? 24 When did you come here 2004 you came here in 2004 smoked
marijajuna? Yes, did you have any voices schizophrenia as I do as millions of
people do before you came here and smoked marijauna no When did you come
down with voices and schizophrenia that’s too bad I said I have disorganized mind
too fantasizing all the time wonder about ESP. He looked for a second and said
you're right it was after he came here and after a year or 2 he smoked marijuana.
This Sephardic Jewish guy name is Mike from Mercer Island Wash, originally a
nice area and also a nice guy though I haven't seen him in years. But when talk to
him he was smart understood all these mystical connections with numbers and
dates and coincidences others don’t but he him he talks nonstop to himself from
MARIJAUANA got a permanent schizophrenia his friends that did it with him that
are successful lawyers doctors businessmen did any once have decency to check
with him how he's doing. Saw his brother he said Mikes in bad shape he wanders
around endlessly in a halfway house in Auburn (South of Seattle) picking cigarette
butts off ground so some people like him like me it causes schizophrenia of all
genders, all race, all socio-economic factors and permanent mental illness in some
people. Have a african American Homeless friend Charles he’s good man always
28

has been he’s pretty smart studied math 3 years at University and has common
sense from being on streets. He also sat on the wall across from the food bank.
Asked him he said there reading his mind in the food bank. He said he smoked
marijauan as a teenager and also had telepathy and had people read his thoughts
and voices. Charles is a nice man. That's not the point, the point is he has a
permanent mental illness. When I said Marijuana ruined your life if you never
smoked it you never would be mentally ill and homeless today. He said of course
it did. from it is the last priority of everyone and I’m damaged for life because of
the nonstop unavoidable constant 2ne hand marijuana that opened up my mental
illness that my late wonderful Mom by getting to another environment. This whole
case is about 1 random harmless marijuana induced ESP checking question as in
DOCTORS PSYCHOLOGISTS letters as said in court over and over which I ask
people to check all the time by the way. Everyone, it increases risks of heart
attacks, strokes, cancer, dementia. I can’t sleep from 2nd hand and now new
evidence of higher rates of prediabetes and complications of death with people that
have it.
It's not good. America needs to take heed of the whole ROOT of this case. The
harmless ESP checking question in 1 random contact was about my delirious
exhausted fantasizing mental state from concussion and non-stop 2nd hand
cannabis exposure and lack of sleep.
IMPORTANT
If Ms. Sylvester tries to argue that this was not mentioned in the lower courts.
Hold it WRONG in Original hearing worked hard served city attorneys put in
JUDGES MAILBOX the DAY BEFORE. DOCTORS, PSYCHOLOGISTS
LETTERS. All say I’m DAMAGED and mentally ill in general I’m delirious
exhausted by MARIJUAUNA it’s a psychoactive DRUG the ESP question that
mentioned over and over again was about MENTAL ILLNESS OBVIOUSLY and
in the PSYCHOLOGIST LETTER and DOCTORS LETTERS that JUDGE
NEVER READ. It was WRITTEN as part of case information over and over
JUDGE NEVER READ NOR HEARD NOR CONSIDERED.
So it was mentioned in the lower courts and brought up. JUDGE NEVER READ
it and I displayed MENTAL ILLNESS FROM THE GET GO and said over and
over again the truth I don’t know who she is and the question was just about ESP.
So if Ms. Sylvester tries to argue this wasn’t brought up in the lower courts IT
WASa in ALL DOCTORS PYCHOLOGISTS CLINICIANS LETTERS. JUDGE
NEVER READ. Plus I mentioned in court over and over the OCD schizo affective
QUESTION in 1 random contact was just about ESP the 1st for someone else.
Loving Ms. Levias Ms. Evans, Ms. Sylvwster what they are writing is a lie is
impossible logically. And other peijury. this in ALL DOCTORS,
29

PSYCHOLOGISTS LETTERS JUDGE NEVER READ as in COURT
TRANSCRIPT nor my DECLARATIONS NOR LAWYERS NOR FRIENDS.
The DERIOUS EXHAUSTED FANTASIZING MENTAL STATE WAS
NEVER taken into consideration nor my harmless ESP checking question when
PROOF Ms. Levias, Ms. Evans, Ms. Sylvester are perjuring, lying, making one
false statement after another to obtain this. Logically can prove Ms. Levias
statement was IMPOSSIBLE Ms. Evans used dishonesty OMISSIONS and Ms.
Sylvester is also guilty of perjury, making one false statement after another of all 3
ladies.
Some of health hazards of Marijuana that United States needs to take heed in this
huge conflict of law between Federal and STATE law MENTAL and PHYSICAL

Marijuana over activates parts of the brain that contain the highest number of these
receptors. This causes the "high" that people feel. Other effects include:
• altered senses (for example, seeing brighter colors)
• altered sense of time
• changes in mood
• impaired body movement
• difficulty with thinking and problem-solving
• impaired memory
• hallucinations (when taken in high doses)
• delusions (when taken in high doses)
• psychosis (risk is highest}

What are the other health effects of marijuana?
Marijuana use may have a wide range of effects, both physical and mental.

Physical Effects

30

• Breathing problems. Marijuana smoke irritates the lungs, and people who
smoke marijuana frequently can have the same breathing problems as those
who smoke tobacco. These problems include daily cough and phlegm, more
frequent lung illness, and a higher risk of lung infections. Researchers so far
haven't found a higher risk for lung cancer in people who smoke marijuana.8
• Increased heart rate. Marijuana raises heart rate for up to 3 hours after
smoking. This effect may increase the chance of heart attack. Older people
and those with heart problems may be at higher risk.
• Problems with child development during and after pregnancy. One study
found that about 20% of pregnant women 24-years-old and younger
screened positive for marijuana. However, this study also found that women
were about twice as likely to screen positive for marijuana use via a drug test
than they state in self-reported measures.9 This suggests that self-reported
rates of marijuana use in pregnant females is not an accurate measure of
marijuana use and may be underreporting their use. Additionally, in one
study of dispensaries, nonmedical personnel at marijuana dispensaries were
recommending marijuana to pregnant women for nausea, but medical
experts warn against it. This concerns medical experts because marijuana
use during pregnancy is linked to lower birth weightio and increased risk of
both brain and behavioral problems in babies. If a pregnant woman uses
marijuana, the drug may affect certain developing parts of the fetus's brain.
Children exposed to marijuana in the womb have an increased risk of
problems with attention, memory, and problem-solving compared to
unexposed children. 12 Some research also suggests that moderate amounts of
THC are excreted into the breastmilk of nursing mothers. With regular use,
31

THC can reach amounts in breast milk that could affect the baby's
developing brain. Other recent research suggests an increased risk of preterm
births. More research is needed. Read our Marijuana Research Report for
more information about marijuana and pregnancy.
• Intense nausea and vomiting. Regular, long-term marijuana use can lead to
some people to develop Cannabinoid Hyperemesis Syndrome. This causes
users to experience regular cycles of severe nausea, vomiting, and
dehydration, sometimes requiring emergency medical attention.

Reports of Deaths Related to Vaping
The Food and Drug Administration has alerted the public to hundreds of reports of
serious lung illnesses associated with vaping, including several deaths. They are
working with the Centers for Disease Control and Prevention (CDC) to investigate
the cause of these illnesses. Many of the suspect products tested by the states or
federal health officials have been identified as vaping products containing THC,
the main psychotropic ingredient in marijuana. Some of the patients reported a
mixture of THC and nicotine, and some reported vaping nicotine alone. No one
substance has been identified in all the samples tested, and it is unclear if the
illnesses are related to one single compound. Until more details are known, FDA
officials have warned people not to use any vaping products bought on the street,
and they warn against modifying any products purchased in stores. They are also
asking people and health professionals to report any adverse effects. The CDC has
posted an information page for consumers.
Image

32

Photo by ©iStock/Adrian Hillman
Mental Effects
Long-term marijuana use has been linked to mental illness in some people, such as:

• temporary hallucinations
• temporary paranoia
• worsening symptoms in patients with schizophrenia—a severe mental
disorder with symptoms such as hallucinations, paranoia, and disorganized
thinking

Marijuana use has also been linked to other mental health problems, such as
depression, anxiety, and suicidal thoughts among teens. However, study findings
have been mixed.

How Does Marijuana Affect a Person's Life?
Compared to those who don't use marijuana, those who frequently use large
jamounts report the following:

• lower life satisfaction
33

• poorer mental health
• poorer physical health
i

j* more relationship problems

IPeople also report less academic and career success. For example, marijuana use is
'linked to a higher likelihood of dropping out of school. 18 It’s also Linked to more
job absences, accidents, and injuries.

Many people who use marijuana long term and are trying to quit report mild
withdrawal symptoms that make quitting difficult. These include:

• grouchiness
• sleeplessness
• decreased appetite
• anxiety
• cravings

Points to Remember
• Marijuana refers to the dried leaves, flowers, stems, and seeds from the
Cannabis sativa or Cannabis indica plant.
• The plant contains the mind-altering chemical THC and other related
compounds.
• People use marijuana by smoking, eating, drinking, or inhaling it.
34

Smoking and vaping THC-rich extracts from the marijuana plant (a practice
called dabbing) is on the rise.
THC over activates certain brain cell receptors, resulting in effects such as:
o altered senses
o changes in mood
o impaired body movement
o difficulty with thinking and problem-solving
o impaired memory and learning
Marijuana use can have a wide range of health effects, including:
o hallucinations and paranoia
o breathing problems
o possible harm to a fetus's brain in pregnant women
The amount of THC in marijuana has been increasing steadily in recent
decades, creating more harmful effects in some people.

There aren’t any reports of teens and adults dying from using marijuana
alone, but marijuana use can cause some very uncomfortable side effects,
such as anxiety and paranoia and, in rare cases, extreme psychotic reactions.
Marijuana use can lead to a substance use disorder, which can develop into
an addiction in severe cases.
No medications are currently available to treat marijuana use disorder, but
behavioral support can be effective.
There is such a scientific link between Cannabis Marijuana 2nd hand
marijuana and all these diseases mental and physical and Dementia and now
35

Pre-Diabetes. This case the ESP checking question asked that
MARIJAUNA damages me, insomnia and concussion and I got
Schizoaffective Disorder Schizophrenia and Bipolar Manic Depression from
it and OCD and a brain injury. Other disabled people such as me mentally
ill, have gone against lies falsely reported about. As Marijuana goes up
mental illness goes up as Marijuana use goes down mental illness goes down
every scientific data knows it Dr. Daniel Amen's brain specs. There is also a
major risk you will see DEMENTIA influx of DEMENTIA increased as
MARIJUANA and nonstop 2nd hand EXPOSURE. The air purifiers fans
close windows, it penetrates and on streets parks more. For GREATER
HEALTH GOOD of UNITED STATES, the conflict of FEDERAL and
STATE LAWS and the lack of any enforcement in States its LEGAL and
States it's ILLEGAL. This case was all about a harmless mental illness
question that CAUSED EXACERBATED from Marijuana decades ago and
exacerbated rekindled from constant 2nd hand WEED and lack of sleep and
concussion as a peer-to-peer counselor passed State Exam with 95 % in
2011 months after my brilliant Dad passed away also but for GREATER
GOOD OF UNITED STATES HEALTH MENTAL AND PHYSICAL this
should be put in the forefront right now. This is crucial for the mental and
physical HEALTH for the mentally ill and for the millions of Americans in
general in the United States where it's getting more and more accepted in
spite of the serious scientific health damages it causes which all Scientific
data shows.

36

r

CONCLUSION
For the above reasons, the petition for a writ of certiorari should be granted.

Dated this 6 day of October 2021.
Respectfully submitted,

Steven Baumgarten
P.O. Box 17219
Seattle, WA 98127
Petitioner Pro Se
206 739 7593
washusahealth@gmail.com

37

